NOT DESIGNATED FOR PUBLICATION
No. 119,503
IN THE COURT OF APPEALS OF THE STATE OF KANSAS
SCOTT P. ROEDER,
Appellant,
v.
State of Kansas,
Appellee.

MEMORANDUM OPINION
Appeal from Sedgwick District Court: WARREN M. WILBERT, judge. Opinion filed July 19, 2019.
Affinned.
Kristen B. Patty, of Wichita, and Scott P. Roeder, pro se, for appellant.

Matt J. Maloney, assistant district attorney, Marc Bennett, district attorney, and Derek Schmidt,
attorney general, for appellee.

Before HILL, P. J., STANDRIDGE, J., and NEIL B. FOTH, District Judge, assigned.

PER CURIAM: Scott P. Roeder appeals from the district court's decision to
summarily dismiss his motion attacking sentence, which the district court construed as a
request for postconviction relief under K.S.A. 2018 Supp. 60-1507. Roeder also appeals
from the district court's decision to dismiss his emergency motion to protect unborn
individuals. For the reasons stated below, we affirm both of the district court's decisions.

1
Appendix A - 1

FACTUAL AND PROCEDURAL BACKGROUND

A jmy con victed Roeder of one count of premeditated first-degree murder after
Roeder fatally shot Dr. George Tiller during a church service in an effort to prevent the
doctor from performing further abortions. The jury also convicted Roeder of two counts
of aggravated assault based on evidence that, while he was fleeing the scene after the
shooting, Roeder threatened to shoot two men who pursued him into the parking lot.
Roeder's convictions were affirmed by the Kansas Supreme Court. Roeder subsequently
filed a motion attacking his sentence, which the district court construed as a motion for
postconviction relief under K.S.A. 2018 Supp. 60-1507. In his motion, Roeder claimed
(1) he was the victim of a pattern of deliberate legal indifference, (2) he was denied the
twin rights of being present at all critical stages of a criminal prosecution and being free
to retain counsel of choice, (3) he was denied effective assistance of counsel during the
original proceedings in the district court, and (4) he was denied effective assistance of
counsel on direct appeal.

Roeder later filed under the same case number an emergency motion for a stay of
execution of all unborn and partially bom individuals.

The district court summarily dismissed the 1507 motion, finding Roeder's
allegations either were unsupported by existing law, were merely conclusory allegations,
or should have been made on direct appeal. The court dismissed the emergency motion
for stay of execution, finding that Roeder lacked standing and that filing an ancillary
proceeding to protect the rights of unborn or partially bom individuals within a 1507
motion constituted an abuse of process.

Roeder moved to alter or amend the court's ruling. After reviewing the briefs
submitted by Roeder, the court declined to alter or amend its ruling based on a finding
that Roeder

2

Appendix A - 2

"did not state any particular facts that would show that counsel's performance fell below
an objective standard of []reasonableness and that the performance prejudiced the
petitioner. Petitioner merely advanced legal arguments or theories that he claims trial
counsel or appellate counsel should have argued on appeal. Many of the legal positions or
theories advocated by the Petitioner arc not supported by current law or would not have
been admissible at the time of the petitioner's trial."

The court also reaffirmed its dismissal of Roeder's emergency motion.

Standard of Proof
The law surrounding K.S.A. 2018 Supp. 60-1507 motions is well-established. A
district court has three options when handling a 1507 motion:
'"(1) The court may determine that the motion, files, and case records conclusively show
the prisoner is entitled to no relief and deny the motion summarily; (2) the court may
determine from the motion, files,, and records that a potentially substantial issue exists, in
which case a preliminary hearing may be held. If the court then determines there is no
substantial issue, the court may deny the motion; or (3) the court may detennine from the
motion, files, records, or preliminary hearing that a substantial issue is presented
requiring a full hearing.' [Citation omitted.]" Sola-Morales v. State, 300 Kan. 875, 881,
335 P.3d 1162 (2014).

To avoid the summary denial of a motion brought under K.S.A. 2018 Supp. 601507, a movant bears the burden of establishing entitlement to an evidentiary hearing. To
meet this burden, a movant's contentions must be more than conclusory, and either the
movant must set forth an evidentiary basis to support those contentions or the basis must
be evident from the record. If such a showing is made, the court must hold a hearing
unless the motion is a "second" or "successive" motion seeking similar relief. SolaMorales, 300 Kan. at 881. Here, the district court exercised the first option and
summarily dismissed the motion.

3

Appendix A - 3

Standard of Review

When the district court summarily denies a K.S.A. 2018 Supp. 60-1507 motion, an
appellate court conducts de novo review to determine whether the motion, files, and
records of the case conclusively establish that the movant has no right to relief. SolaMorales, 300 Kan. at 881.

Analysis
On appeal, Roeder raises the following five issues for our review: (1) His
statutory and constitutional rights were violated because he was not present in person and
did not have counsel at his first appearance; (2) his trial counsel was ineffective for
failing to call a coroner as a witness to prove that abortion was a legal harm or evil; (3)
his appellate counsel was ineffective for failing to ask the Kansas Supreme Court to adopt
the definition of "imminence" as set forth in a 2010 U.S. Justice Department
memorandum; (4) his appellate counsel was ineffective for failing to effectively answer
certain questions during oral argument; and (5) the district court erred by dismissing his
emergency motion to protect unborn indi viduals as an abuse of process.

The five issues identified above are derived fr om the appellate brief submitted by
Roeder's attorney as well as from Roeder's pro se appellate brief. The issues are not
necessarily in the same order presented in those briefs. Although Roeder raised more than
five issues in the K.S.A. 2018 Supp. 60-1507 motion he originally filed with the district
court, he failed to brief some of those issues on appeal; thus, we deem them abandoned.
See State v. Arnett, 307 Kan. 648, 650, 413 P.3d 787 (2018) (holding issues not
adequately briefed are waived or abandoned). Roeder also raises a new issue for the first
time on appeal. As a general rule, issues not raised before the trial court cannot be raised
on appeal. See State v. Kelly, 298 Kan. 965, 971, 318 P.3d 987 (2014). Roeder does not

4

Appendix A - 4

argue any of the recognized exceptions to this rule. Therefore, we will not address the
new issue.

1. First appearance
In the motion for relief he filed with the district court, Roeder claimed his
convictions must be vacated because, at his first court appearance after arrest, he was
deprived of the right to be personally present and the freedom to retain counsel of choice:

"At my so called first appearance before a magistrate, while being bound over for
a felony, I was made to appear by way of two-way electronic audio-video communication
without tlie assistance of counsel and without being informed of my right to be personally
present in the courtroom, and at which time my substantial constitutional right to bail was
denied, all of which was broadcast on television while I was in jail clothes. Though
coimsel was later appointed and moved the court to set bail, counsel was ineffective who
addressed neither the deliberate indifference which was shown to me in denying my twin
rights before a televised audience nor its fatal effect upon the state's case which is the
logical effect of deliberate indifference to the twin rights at first appearance."

We begin by noting that, contrary to his assertion, Roeder was not bound over on
felony charges at his first court appearance on June 2, 2009. The proceeding in which
Roeder was bound over on the felony charges lodged against him was the preliminary
hearing, which was held on July 28, 2009. The journal entry and transcript from the
preliminary hearing reflect Roeder was present in person and through counsel, Charles
Osbum. The journal entry and transcript also reflect that, after hearing evidence at the
healing, the district court found probable cause to believe (1) that the offenses of firstdegree murder and aggravated assault had been committed and (2) that Roeder was the
individual who committed those offenses. See In re D.E.R., 290 Kan. 306, 312-14, 225
P,3d 1187 (2010) (purpose of statutory preliminary hearing is to determine whether crime
has been committed and whether there is probable cause to believe that defendant

5
Appendix A - 5

committed it). Based on the court's finding of probable cause, Roeder was bound over for
trial. See K.S.A. 2018 Supp. 22-2902(3) ("If from the evidence it appears that a felony
has been committed and there is probable cause to believe that a felony has been
committed by the defendant, the magistrate shall order the defendant bound over to the
district judge having juri sdiction to try the case; otherwise, the magistrate shall discharge
the defendant.").

Unlike a preliminary hearing, the Kansas statute governing first court appearances
provides, in relevant part:

"(1) Except as provided in subsection (7), when an arrest is made in die county
where the crime charged is alleged to have been committed, the person arrested shall be
taken without unnecessary delay before a magistrate of the court from which the warrant
was issued. If the arrest has been made on probable cause, without a warrant, he [or she]
shall be taken without unnecessary delay before die nearest available magistrate and a
complaint shall be filed forthwith." K.S.A. 2018 Supp. 22-2901(1).

The purpose of the rule requiring a person to be taken before a magistrate without
unnecessary delay after an arrest is to safeguard individual rights. State v. Wakefield, 267
Kan. 116, 124, 977 P.2d 941 (1999). Although law enforcement, as part of the executive
branch of government, is charged with the duty to advise arrestees of their statutory and
constitutional rights, K.S.A. 2018 Supp. 22-2901(1) comports with fundamental
principles of due process by requiring that the arrestee be taken without unnecessary
delay to an impartial tribunal so a neutral judge can provide the arrestee with notice of the
charges filed and the constitutional rights to which the arrestee is entitled. See Stale v.
Crouch & Reeder, 230 Kan. 783, 785-86, 641 P.2d 394 (1982).

Given the record reflects both he and his attorney were present at his preliminary
hearing, we now address the merits of Roeder's claims alleging that he was deprived of

6
Appendix A - 6

the right to be personally present and the freedom to retain counsel of choice at his first
court appearance. We address each of these claims in turn.

a. Right to be present
Whether a trial court violated a defendant's constitutional or statutory right to be
present at eveiy critical stage of his or her criminal trial is an issue of law over which an
appellate court exercises unlimited review. State v. Verser, 299 Kan. 776, 787, 326 P.3d
1046 (2014).

A defendant has both a constitutional and a statutory right to be present at all
critical stages of prosecution . The constitutional right '"emanates from the Sixth
Amendment right to confront witnesses and from the right to due process guaranteed
under the Fifth and Fourteenth Amendments.'" State v. Lowery, 308 Kan. 1183, 1213, 427
P.3d 865 (2018). The statutory right is set forth in K.S.A. 2018 Supp. 22-3405, a section
of the criminal code of procedure in Kansas governing the presence of the defendant at
trials and proceedings incident to trials. The statute states, in relevant part, that "[t]he
defendant in a felony case shall be present at the arraignment, at eveiy stage of the trial
including the impaneling of the juiy and the return of the verdict, and at the imposition of
sentence, except as otherwise provided by law." K.S.A. 2018 Supp. 22-3405(a). The
effect of this statute has been held by our Supreme Comt to be "'analytically and
functionally identical to the requirements under the Confrontation Clause and the Due
Process Clause of the federal Constitution that a criminal defendant be present at any
critical stage of the proceedings.'" Lowery, 308 Kan. at 1213.

Relevant to the issue presented by Roeder here, the section of the criminal code of
procedure in Kansas governing pretrial proceedings provides the manner in which the
court can satisfy its duty to ensure a defendant is not deprived of the right to be present
when pretrial pleadings and motions come before the court. Specifically, K.S.A. 2018

7

Appendix A - 7

Supp. 22-3208(7) deems the defendant's participation via audio-video connection to
satisfy the right to be present at hearings when pretrial pleadings and motions come
before the court so long as the defendant is informed of the defendant's right to be
personally present in the courtroom during those proceedings upon request of the
i

defendant.

Roeder made his first court appearance on June 2, 2009. He readily concedes that
he was present at the hearing. He takes issue, however, with the fact that the district court
failed to inform him during the video hearing of his right to be personally present in the
courtroom upon request, as set forth by K.S.A. 2018 Supp. 22-3208(7). Claiming he
would have requested a personal appearance in the courtroom had he been told of his
right to make such a request, Roeder argues he was prejudiced by the court's failure to
advise him of his right. We are not persuaded by Roeder's argument. Significantly,
Roeder does not argue, nor are there facts in the record to establish, that Roeder's
appearance at the first court hearing by video, as opposed to an in-person appearance,
deprived him of any constitutional right, including the right to confront witnesses or his
due process right to a fair and just heal ing. For this reason, Roeder's constitutional
,

challenge fails.
i

With regard to his claim that the district court erred by failing to comply with the
statute requiring a defendant be advised during a video healing of the right to be
personally present in the courtroom upon request, Roeder has failed to provide any
evidence to establish that he was not so informed. The written journal entry documenting
Roeder's first appearance on June 2, 2009, does not indicate how Roeder appealed,
whether Roeder was informed of this right to appeal' in person upon request, and, if he
was, whether he affirmatively made such a request. Although Roeder attached an
uncertified transcript to his appellate brief that purports to document the proceedings at
the initial appearance, an official certified ban script of the first appearance is not part of
the record on appeal. And even if we could consider the uncertified transcript attached to
8
Appendix A - 8

his brief, that transcript affirmatively indicates that Roeder appeared at the hearing "in
person."

In sum, we find the motion, files, and records of the case conclusively establish
that Roeder is not entitled to relief on his claim that he was deprived of his constitutional
or statutory right to be present at his initial appearance.

b. Right to counsel
Roeder complains the distr ict court violated his Sixth Amendment right to counsel
by failing to provide him an attorney at his first appearance, a hearing at which the court
determined Roeder should be held without bond. But the Sixth Amendment right to
counsel applies only at "critical stages" of the criminal proceeding, and Roeder's first
appearance and initial bail hearing was not a critical stage of his criminal proceeding. See
Craig v. State, 198 Kan. 39, 41, 422 P.2d 955 (1967) (noting that counsel need not be
appointed for initial appearance before judge at which bail is determined); see 3 LaFave,
Israel, King, & Kerr, Criminal Procedure § 11.2(b), p. 702 (4th ed. 2015) (noting that
while United States Supreme Court left open question of whether first appearance in
criminal case is critical stage requiring counsel in Rothgery v. Gillespie County, 554 U.S.
191, 128 S. Ct. 2578, 171 L. Ed. 2d 366 [2008], statements in Court's opinion and
concurring opinion suggested that the standard first appearance ordinarily would not be a
critical stage).

Even if we construed his fu st court appearance to be a critical stage of the criminal
proceedings against him, Roeder does not allege, nor is there record evidence to establish,
that Roeder was prejudiced in any way. The record on appeal establishes that Roeder
made his initial court appearance on June 2, 2009, the same day he was charged. The
judge read the charges, denied Roeder the right to be released upon payment of an
appearance bond, and appointed the public defender's office to defend him. On June 3,

9
Appendix A - 9

2009—one day after his first court appearance—Roeder's court-appointed counsel filed a
motion for an appearance bond. On June 4, 2009, the court set bond at $5 million.

The motion, files, and records of the case conclusively establish that Roeder is not
entitled to relief on his claim that he was deprived of his constitutional right to counsel at
his initial appearance.

2. Ineffective assistance of counsel
To prevail on a claim of ineffective assistance of counsel, a movant must establish
(1) that die performance of defense counsel was deficient under the totality of the
circumstances, and (2) prejudice, i.e., that there is a reasonable probability of a different
result absent the deficient performance. Sola-Morales, 300 Kan. at 882 (relying on
Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct. 2052, 80 L. Ed. 2d 674 [1984]).
Judicial scrutiny of counsel's performance in a claim of ineffective assistance of counsel
is highly deferential and requires consideration of all the evidence before the judge or
jury. State v. Butler, 307 Kan. 831, 853, 416 P.3d 116 (2018). The reviewing court must
strongly presume that counsel's conduct fell within the broad range of reasonable
professional assistance. Stale v. Kelly, 298 Kan. 965, 970, 318 P.3d 987 (2014).

a. Trial counsel
Roeder contends that his trial counsel was ineffective for failing to call the coroner
as a witness to make a factual determination "whether babies killed by performing an
abortion are in fact victims of the legal harm or evil of homicide." Roeder argues this
testimony was critical to his necessity and imperfect defense-of-others defenses. He
argues that if he showed that abortion was a legal harm or evil, he would have been
t

allowed to assert those defenses and it would have been more likely than not that no
reasonable juror would have convicted him of first-degree murder.

10
Appendix A - 10

Notably, Roeder challenged on direct appeal the district court's decision to deny
his request to put on a necessity defense and the court's decision to deny his request to
give an instruction on the lesser included offense of voluntary manslaughter based on
imperfect defense-of-others. Although now framed in the context of ineffective assistance
of counsel, he now raises these same issues.

(i) Necessity defense
Before trial, the trial court ruled that Roeder could not present a necessity defense.
As we noted, Roeder challenged that ruling in his direct appeal. In its decision, our
Supreme Comt declined to state whether a necessity defense could ever be presented in
Kansas. Rather, the court held the facts presented in this particular case "unequivocally
preclude" applying die necessity defense. State v. Roeder, 300 Kan. 901, 919, 336 P.3d
831 (2014). The court held:
"Regardless of whether Kansas courts can recognize a necessity defense as a
matter of common law and regardless of the formulation of tire defense that might be
adopted, the necessity defense would never be available to a defendant who commits
premeditated first-degree murder of a doctor in order to prevent that doctor from
performing an abortion sometime in the future, even if the defendant is convinced that the
doctor will fail to comply with all the administrative rules and regulations applicable to
abortion providers." 300 Kan. 901, Svl. *\: 3.

Given the manner in which Roeder wanted to avail himself of the necessity
defense, the Supreme Comt held the defense would be available only if Roeder could
establish the following elements: (1) He faced a choice of evils and chose the lesser evil,
(2) he acted to prevent imminent harm, (3) he reasonably anticipated a direct causal
relationship between his conduct and the harm to be averted, and (4) he had no legal
alternatives to violating the law. 300 Kan. at 917.

11
Appendix A - 11

In holding that the facts presented in this case precluded application of the
necessity defense, the Supreme Court characterized the evil Roeder sought to prevent as:

"Dr. Tiller's failure to comply with all of tire rules and regulations applicable to abortion
providers, i.e., administrative or procedural irregularities. Roeder wants to argue that the
doctor was murdering babies, but that is his religious and moral view, rather than die
legal view in this state. As noted above, \City of Wichita v.] l'ilson[. 253 Kan. 285, 855
P.2d 911 (1993)] declared that '[t]he hann or evil which a defendant, who asserts the
necessity defense, seeks to prevent must be a legal harm or evil as opposed to a moral or
ethical belief of the individual defendant.' 253 Kan. at 289-90. Indeed, one need look no
further than Dr. Tiller's criminal trial upon which Roeder relics to establish his belief that
illegal abortions were occurring at the clinic. The doctor was not charged with murder,
but rather that trial was about misdemeanor violations for failing to follow the proper
procedure." 300 Kan. at 917-18.

The court ultimately concluded that Roeder did not choose the lesser evil when he
killed Dr. Tiller. The court also concluded that Roeder did not act to prevent imminent.
harm because Dr. Tiller was not going to be performing any abortions at the church. The
court found Roeder killed Dr. Tiller at the church because it made the assassination easier
to accomplish. The court did not find persuasive Roeder's argument that the possibility of
Dr. Tiller performing an abortion 22 hours after the shooting qualified as imminent harm.
Finally, the court found Roeder did not sincerely believe the haim was imminent because
he waited over a decade to prevent it. 300 Kan. at 918.

Given the Supreme Court's decision affirming the district court's decision to
preclude Roeder from asserting a necessity defense, we find his trial counsel was not
deficient for failing to call the coroner as a witness to make a factual determination
"whether babies killed by performing an abortion are in fact victims of the legal harm or
. evil of homicide."

12
Appendix A - 12

(ii) Imperfect defense-of-others
On direct appeal, Roeder also argued the district court erred in denying his request
to give an instruction on the lesser included offense of voluntary manslaughter based on
imperfect defense-of-others. Relevant here, K.S.A. 21-3403(b) defined voluntary
manslaughter based on an imperfect defense-of-others as "the intentional killing of a
human being committed ...(b) upon an unreasonable but honest belief that
circumstances existed that justified deadly force under K.S.A. 21-3211." The statute
referenced in the definition, K.S.A. 21-3211, sets forth the elements necessary to support
a perfect defense of third persons.

Roeder argued in his direct appeal that lie met the criteria necessary to justify
giving a voluntary manslaughter instruction based on imperfect defense-of-others by
testifying that he honestly believed killing Dr. Tiller was necessary in order to defend the
lives of others. Implicit within Roeder's argument is the notion that an imperfect defenseof-others instruction is proper based solely on a showing of a defendant's subjective and
honest belief that deadly force was necessaiy to protect third persons. Our Supreme Court
disagreed, holding that the voluntary manslaughter analysis requires both (1) a finding
that the defendant subjectively and honestly believed that circumstances existed to justify
deadly force as well as (2) a finding that the circumstances which the defendant honestly
believed to exist must have been circumstances that would have supported a perfect
defense of third persons under K.S.A. 21-3211. See Roeder, 300 Kan. at 923. The court
held that "even if the circumstances that Roeder believed existed had been fine—that Dr.
Tiller would be performing abortions the following day—those circumstances would not
have supported a claim of perfect defense-of-others." 300 Kan. at 926. The court further
held that in order for the defense "to apply under K.S.A. 21-3211(a), Roeder had to be
defending against Dr. Tiller's 'imminent use of unlawful force' against a third person."
300 Kan. at 926. The court explained:

13
Appendix A - 13

"As the trial court aptly noted, no use of force was imminent in the church foyer
that Sunday morning. Moreover, the facts belie the notion that Roeder committed die
crime when and where he did because of an honest belief in the imminence of hann. To
the contrary’, he coldly calculated the time and place that gave him the best odds of
successfully completing his planned murder. Additionally, given that abortions are
lawful, Roeder could not have been defending against unlawful force, as required for
perfect defense-of-others. Even if the doctor had failed to comply widi all of the rules and
regulations governing abortions, the use of the force required to accomplish the abortion
would not have been unlawful.
"Finally, we would note that Roeder's argument that he honestly believed that Dr.
Tiller was performing unlawful abortions based upon the attorney general investigations
and allegations that the doctor was violating administrative protocol is simply
disingenuous. Roeder testified that he formed the belief that he needed to kill Dr. Tiller
over a decade prior to any attorney general investigation. Further, he clearly testified that
he sought to stop all abortions, including those that were legal under the law." 300 Kan.
at 926.

Again, given the Supreme Court's decision that the district comt did not err in
denying Roeder's request to give an instruction, on the lesser included offense of
voluntary manslaughter based on imperfect defense-of-others, we necessarily find his
trial counsel was not deficient for failing to call the coroner as a witness to support such
an instruction.

b. Appellate counsel
(i) Imminence
Roeder contends that a threat on U.S. persons is "imminent" when an individual
'"is engaged in continual planning and direction of attacks upon U.S. persons' even when
one 'does not know precisely when such attacks will occur.'" He purportedly derives this
definition from a U.S. Department of Justice memorandum entitled "'Applicability of
Federal Criminal Laws and the Constitution to Contemplated Lethal Operations Against
14
Appendix A - 14

Shaykh Anwar al-Aulaqi'" dated July 16, 20.10. Roeder contends under this definition of
imminence, as long as Dr. Tiller had abortions on his schedule they were imminent, no
matter how far out. He contends that no reasonable juror would have found his belief that
haim was imminent unreasonable in view of this definition of imminence. He contends
that his appellate counsel was ineffective for conceding that six months out was not
imminent.

But there was no support in the law upon which appellate counsel could rely to
support Roeder's broad definition of imminence. To make a claim of imperfect defense of
another, the defendant must have actually believed that an imminently dangerous
situation existed at the time of the killing. State v. White, 284 Kan. 333, Syl. T| 10, 161
P.3d 208 (2007).

In White, the court held that, although "'imminent' describes a broader time frame
than immediate, the term 'imminent' is not without limit. The danger must be near at
hand." 284 Kan. 333, Syl. ^ 9. White believed that his grandson had been sexually abused
and would be abused in the future. White drove to the Wal-Mart store where the
purported abuser worked, and White shot and killed him. The court found no evidence
that White actually believed that the grandson was in imminent danger at the time of the
shooting because the grandson was not present at the store. Thus a voluntary
manslaughter instruction based on imperfect defense of others would have been
inappropriate. 284 Kan. at 353. Similarly here, Dr. Tiller's alleged victims were not
present at the church where Roeder shot him.

In State v. Hernandez, 253 Kan. 705, 861 P.2d 814 (1993), Hernandez confronted
Randy Meis after 9:05 a.m. at then mutual place of employment and asked him outside.
Hernandez believed that Randy, who was married to Hernandez' sister Myra Meis,
intended to kill Myra at 11 a.m. that day (less than two hours away). Randy had a history
of violence toward Myra. But Myra was not present during the confrontation; though
15
Appendix A - 15

Myra worked at the same location and was in the building. During the confrontation,
Hernandez shot and killed Randy. The court ruled the danger to Myra was not imminent,
and Hernandez had no right to a defense-of-another instruction. 253 Kan. at 712-13.

This underlying issue of imminence was decided aversely to Roeder in his direct
appeal. His appellate counsel argued that Roeder believed the danger was imminent
because, at the time of the shooting, Dr. Tiller had an abortion scheduled 22 hours later.
See Roeder, 300 Kan. at 918. But the Kansas Supreme Court found 22 hours was not
imminent. The court thus refused to adopt even his counsel's more narrow definition of
imminence. The court considered the danger posed by Dr. Tiller "remote" compared to
Hernandez. Roeder, 300 Kan. at 939. And the court found that the facts showed Roeder
did not have an honest belief in the imminence of the harm; rather, he waited over a
decade and "coldly calculated the time and place that gave him the best odds of
successfully completing his planned murder." 300 Kan. at 918, 926.

We find no deficiency in appellate counsel's representation related to the issue of
imminence.

(ii) Oral argument
Roeder argues his appellate counsel was ineffective by stating that Roeder
believed that only late-term abortions were illegal. Rather, he believed "that any abortion
performed by Tiller, being the lethal execution of a baby, was unlawful and that its
prevention justified the use of deadly force." But Roeder's position only makes it clear
why he was not entitled to an imperfect self-defense instruction as a matter of law. In its
opinion, our Supreme Court held that it is a "fundamental notion that everyone is
presumed to know the law and one cannot use as a defense his or her subjective belief
that the law is or should be something different." (Emphasis added.) Roeder, 300 Kan. at
922. The court held that "given that abortions are lawful, Roeder could not have been

16
Appendix A - 16

defending against unlawful force" as required to claim imperfect self-defense. 300 Kan.
at 926.

Roeder also argues that appellate counsel was ineffective for being stumped by
certain hypotheticals posed by the justices. But the fact that Roeder may have answered
these hypotheticals differently than his appellate counsel does not establish that counsel's
representation fell below the broad range of reasonable professional assistance. We find
no deficiency in appellate counsel's statements at oral argument.

3. Emergency motion
Roeder contends that he established in his emergency motion the right of unborn
and partially bom individuals to a stay of execution of sentence of death under Kansas
law. The district court ruled that Roeder could not use a K.S.A. 60-1507 proceeding as a
vehicle to file ancillary proceedings for unborn or partially bom individuals. Roeder
responds that the emergency motion was properly within the scope of his K.S.A. 60-1507
proceeding because (1) the legal proof of personhood fell within the scope of what was
\

germane to establishing his own right to an evidentiaiy hearing on his K.S.A. 60-1507
motion and (2) lives urgently need to be saved from lethal execution under Kansas law.

To decide this issue, it is helpful to understand precisely what K.S.A. 2018 Supp.
60-1507(a) says:
"A prisoner in custody under sentence of a court of general jurisdiction claiming
the right to be released upon the ground that (he sentence was imposed in violation of the
constitution or laws of the United States, or the constitution or laws of the state of
Kansas, or that the court was without jurisdiction to impose such sentence, or that the
sentence was in excess of the maximum authorized by law, or is otherwise subject to
collateral attack, may, pursuant to the time limitations imposed by subsection (f), move

17
Appendix A - 17

the court which imposed the sentence to vacate, set aside or correct the sentence."
(Emphases added.)

The statute permits a prisoner to challenge his or her sentence in the court which
imposed the sentence, not to challenge anyone else's sentence. It does not matter if the
issues involved are similar. As the district court aptly explained,
"The statutory procedure under K.S.A. 60-1507 is an individual remedy for a person
allegedly unlawfully held in detention. The request is unique to that individual and anyrequested relief afforded by the circumstances of that individual's detention. To allow the
Petitioner to advocate on behalf of the unborn or partially bom individuals, (assuming for
the moment that is even a viable legal position) would be tantamount to allowing any
prisoner in the State of Kansas to file their individual petition under K.S.A. 60-1507, and
then advocate on behalf [of] all prisoners 'similarly situated' for their alleged unlawful
detention. Petitioner is not entitled in this instant action to amend and add separate claims
on behalf of other individuals, even as 'next friend'. The petitioner's attempt to seek
additional relief on behalf of others, beyond his individual claims under K.S.A. 60-1507,
is an abuse of process, and would not be recognized as a legal theory under the present
case. If Petitioner seeks to advocate on behalf of the partially bom or unborn individuals
within this Court's venue and jurisdiction, Petitioner should pursue that reined}- in a
separate action."

Roeder filed a similar petition as an original habeas action under K.S.A. 2018
Supp. 60-1501 in November 2017 under case number 118,601. The Supreme Court
dismissed that petition. The district court did not err in dismissing Roeder's emergency
motion.

Affirmed.

18
Appendix A - 18

Court of SUppeate of Kansas

Order

County: SG

301 SW 10th Ave.
Topeka, KS 66612
785.296.3229
*****

FLAT FILE COPY

*****
Appellate Case No. 18-119503-A
District Court Case No. 17CV2373

SCOTT P. ROEDER,
V.
STATE OF KANSAS,

APPELLANT,
APPELLEE.
THE COURT HAS TAKEN THE FOLLOWING ACTION:

MOTION FOR REHEARING OR MODIFICATION BY APPELLANT, PRO SE, SCOTT P. ROEDER.
DENIED.

EFILED
Date: August 21,2019

Douglas T. Shima
Clerk of the Appellate Courts

Appendix B - 1

ELECTRONIC J.Y FILED

2017 Nov 01 PM 3:12
CLERK OF THE SEDGWICK COUNTY DISTRICT COURT
CASE NUMBER: 2017-CV-002373-IA
IN THE EIGHTEEN JUDICIAL DISTRICT, DISTRICT COURT
OF SEDGWICK COUNTY KANSAS
CIVIL DEPARTMENT
vj

tl

s. I

U

SCOTT P. BOEDER,
Movant/Petitioner,
Vs.

17 CV 2373

STATE OF KANSAS,
Respondent

ORDER OF DISMISSAL
Now on the 31“ day of October, 2017, the Court takes up the movant/petitioner's Motion
Attacking Sentence. While couched or phrased as a motion, the movant is seeking relief under K.S.A. 60“
1507. The clerk has treated it as a 60-1507 petition and assigned it this case number.
The Court after reviewing the statements made by the movant/petitioner, finds that many of
the allegations and complaints made by the movant/petitioner are not supported by existing law, or
make mere conclusory allegations with no statements of specific facts. Many of the issues raised in
movant/petitioner's request under K.S.A, 60-1507 could have or shouid have been made during his
direct appeal and would at this point be deemed abandoned.
Subsequent to the filing of his "Motion Attacking Sentence" on October 16, 2017, after being
assigned, a case number for this matter, the movant/petitioner filed an Emergency Motion for Stay of
Execution for Sentence of Death on October 25,2017. Mr. Roeder was not sentenced to death, and is
currently serving life in prison, with his first eligibility for parole at 25 years after the commencement of
his sentence. The most recent motion filed by Mr. Roeder is on behalf of the unborn or partially bom
individuals that he claims are being executed within the jurisdiction of the Eighteenth Judicial District.
The movant/petitioner files this as the next friend of the unborn or partially born individuals. The
petitioner lacks standing to file this request on behalf on the alleged unborn or partially born individuals,
and furthermore, the filing of this request for a Stay of Execution of Sentence of Death in the present
action is not covered by K.S.A. 60-1507 and constitutes an abuse of process.
The files, pleadings and records contained herein do not indicate that the petitioner/movant is
entitled to any relief, and further the petitioner's attempt to use a petition under K.S.A. 60-1507 as a
vehicle to file ancillary proceedings regarding unborn or partiaily bom individuals is an abuse of process.

Appendix C - 1

It is therefore by the Court considered, ordered, adjudged and decreed that the above entitled
matter is dismissed, and that the costs be assessed to the petitioner/movant.

/
J&Jfje
Warren M. Wilber^
District Court Judge
Division 25

CERTIFICATE OF SERVICE OF ORDER OF DISMISSAL

I hereby certify that on this Wednesday, November 1, 2017,1 caused to be
mailed a true and correct copy of the foregoing Order of Dismissal by depositing the
same in the United States Mail, postage prepaid, addressed to the following:

Scott P. Roeder #65192
Ellsworth Correctional Facility
P O Box 107
Ellsworth, KS 67439
David Lowrlen, Assistant District Attorney

rs
! \

(

! J

Patricia A. Harris

.**««*. ~ STATE OF KANSAS
SEDGWICK COUNTY
frf
v\ | hereby certify that the foregoing Is a true

iSEAL)J

Appendix C - 2

ClerkoUhe^—^
By.
Deputy Clerk

ELECTRONk _LY FILED

2017 Nov 28 PM 4:18
CLERK OF THE SEDGWICK COUNTY DISTRICT COURT
CASE NUMBER: 2017-CV-002373-IA
IN THE EIGHTEEN JUDICIAL DISTRICT, DISTRICT COURT
OF SEDGWICK COUNTY KANSAS
CIVIL DEPARTMENT

vVia ^ H
SCOTT P. ROEDER,
Movant/Petitioner,

17 CV 2373

Vs.
STATE OF KANSAS,
Respondent

ORDER
Now on the 28* day of November, 2017, the Court considers the Petitioner's Motion to Alter or
Amend Judgment. Petitioner initiated the proceeding by filing a "Motion Attack the Sentence". The
Court treated the matter as a petition under K.S.A. 60-1507. After considering the Petitioner's
allegations of how his trial counsel and/or appeliate counsel was ineffective, the Petitioner did not state
any particular facts that would show that counsel's performance fell below an objective standard of
unreasonableness and that the performance prejudiced the petitioner. Petitioner merely advanced
legal arguments or theories that he claims trial counsel or appellate counsel should have argued on
appeal. Many of the legal positions or theories advocated by the Petitioner are not supported by
current law or would not have been admissible at the time of the petitioner's trial. This Court can
resolve petitioner's motions without the appointment of counsel, defendant's presence, or an
evidentiary hearing, as the motions, files, and the records of the case establish that petitioner is not
entitled to relief (See generally State v. Duke, 263 Kan. 193,195 -96,946 P.2d 1375 (1997) (Recognizing
that a Court may summarily deny any post-trial motion if it fails to present a substantiai question of law
or fact). To make this determination, the Court may take judicial notice of District Court files and case
history. (In the Interest ofA.S., 12 Kan. App. 2d 594,598, 752, P.2d 705 (1598). (K.S.A. 60-409(fc)(4)
allows a Court to take judicia! notice of its case fiie, including journal entries contained therein.)
Therefore, the Petitioner's Motion to Alter or Amend the Court's judgment as to the Petitioner's
relief sought under K.S.A, 60-1507 is denied and the October 31,2017 Order of Dismissal will stand.
With regards to Petitioner's attempt to advocate on behalf of the unborn or partially born
individuals within the jurisdiction of Sedgwick County, Kansas (18"' Judicial District), the Court will also
deny the Petitioner's request for relief under his pleading of October 25,2017. The Petitioner's own
motion to alter or amend judgment (filed November 17,2017) acknowledges that as next friend, he is
initiating a new proceeding which would be separate from the Petitioner, Scott P. Roeder, under his
request for relief under K.S.A, 60-1S07. On page 3 of Petitioner’s motion, he acknowledges that in both
the 2nd and 3fcl paragraph of his pleading. At the bottom of page 4 and the top o? page 5, the petitioner
acknowledges that if he only claims as next friend to prosecute an emergency motion on behaif of
unborn or partially born individuals, that a separate proceeding might have been more appropriate. The
statutory procedure under K.S.A. 60-1507 is an Individual remedy for a person allegedly unlawfully held
in detention. The request is unique to that individual and any requested relief afforded by the
circumstances of that individual's detention. To allow the Petitioner to advocate on behalf of the unborn

Appendix D - 1

H

or partially born Individuals, (assuming for the moment that is even a viable legal position) would be
tantamount to allowing any prisoner in the State of Kansas to file their individual petition under K.S.A.
60*1507, and then advocate on behalf alt prisoners" similarly situated" for their alleged unlawful
detention. Petitioner is not entitled in this instant action to amend and add separate claims on behalf of
other individuals, even as "next friend". The petitioner's attempt to seek additional relief on behalf of
others, beyond his individual ciaims under K.S.A. 60-1507, is an abuse of process, and would not be
recognized as a legal theory under the present case. If Petitioner seeks to advocate on behalf of the
partially born or unborn individuals within this Court's venue and jurisdiction, Petitioner should pursue
that remedy in a separate action. Although the Court would question the Petitioner's ability to prevail
even in a separate action, it is clear that he cannot proceed for that reiief in this case.
It is Therefore by the Court Considered, Ordered, Adjudged and Decreed that the Petitioner's
Motion To Alter or Amend a judgment should be denied in its entirety and that the Court’s original
Order of Dismissal of October 31,2017, will remain in full force In effect.

k

CutMf'd

Judge Warren M. Wilbert,
District Court Judge
Division 25

CERTIFICATE OF SERVICE OF ORDER OF DISMISSAL

I hereby certify that, on this Tuesday, November 28, 2017,1 caused to be mailed
a true and correct copy of the foregoing Order by depositing the same in the United
States Mail, postage prepaid, addressed to the following:

Scott. P. Roeder #65192
Ellsworth Correctional Facility
P O Box 107
Ellsworth, KS 67439
David Lowden, Assistant District Attorney

i

! \

Patricia A. Harris

STATE OF KANSAS
SEDGWICK COUNTY
X
I hereby certify that the foregoing is a true
* (SEAL) and correct copy of the originaLinstrunlenh
/$J on file in this court. Dated- 5s (cl I I'd
#s
ClerkofJi^P^MctCourt,,^—lr~
V,

•

„■!»-

n„

Appendix D - 2 ’

17 CV 2373
IN THE SUPREME COURT OF THE STATE OF KANSAS

No. 119,503
SCOTT P. ROEDER,
Appellant,
v.
State of Kansas,
Appellee.

ORDER

The court denies Appellant's Petition for Review filed August 19, 2019. The court
also denies Appellant's Supplemental Pro Se Petition for Review filed October 23, 2019.

Dated this 29th day of September 2020.

For the Court
V/

MARlA Luckert,
Chief Justice

Appendix E - 1

■ 1

Order

Court of Uppeala of ikansiag

County: SG

301 SW 10 th Ave.
Topeka, KS 66612
' 785.296.3229
. *****

FLAT FILE COPY

*****
Appellate Case No. 18-119503-A
District Court Case No. 17CV2373

SCOTT P. ROEDER,
V.
STATE OF KANSAS,

APPELLANT,
APPELLEE.

THE COURT HAS TAKEN THE FOLLOWING ACTION:
/
MOTION TO FILE PRO SE SUPPLEMENTAL REPLY BRIEF OF APPELLANT SCOTT P. ROEDER.
DENIED.

EFILED
Date: March 5, 2019

Douglas T. Shima
Clerk of the Appellate Courts

Appendix F - 1

Court of appeals: of Kansas

Order

County: SG

301 SW 10th Ave.
Topeka, KS 66612
785.296.3229
FLAT FILE COPY

*****
Appellate Case No. 18-119503-A
District Court Case No. 17CV2373

SCOTT P. ROEDER,
V.
STATE OF KANSAS,

APPELLANT,
APPELLEE.

THE COURT HAS TAKEN THE FOLLOWING ACTION:

MOTION FOR RECONSIDERATION OF ORDER DENYING MOTION TO FILE A PRO SE SUPPLEMENTAL
REPLY BRIEF BY APPELLANT, SCOTT ROEDER.
DENIED.

EFILED
Date: March 25, 2019

Douglas T. Shima
Clerk of the Appellate Courts

Appendix G - 1

] 7 CV 2373
IN THE SUPREME COURT OF THE STATE OF KANSAS

No. 119,503
SCOTT P. ROEDER,
Appellant,
v.
State of Kansas,
Appellee.

ORDER
The court has considered and denies Appellant's pro se petition for review filed
April 24, 2019.

Dated this 18th day of December 2019.
For the Court
/s/ Marla Luckert
Marla Luckert,
Chief Justice

Appendix H - 1

SUPREME COURT RULE 14(g)(i) APPENDIX
Petitioner has not been provided with a personal copy of the record on
appeal and is therefore unable to cite the record on appeal by page and
volume.
Questions ##1-3:
Question #3 (“Whether the unborn and partially born should be
granted a stay of execution of sentence of death?”) was presented to the trial
court at the pleading stages and briefed on appeal. It is broken up into three
questions for this Court. Question #1 (“Whether the notion of overturning Roe
u. Wade, 410 U.S. 113 (1973), includes other possibilities besides leaving
abortion up to the states?”) arises on petition for a writ of certiorari because
only this Court can overturn its own precedent. Question #2 (“Whether the
prospect of new technology provides encouragement to renew inquiry into the
legality of abortion?”) arises on petition for a writ of certiorari because of this
Court’s concern with the doctrine of stare decisis.
The new technology at issue in Question #2 in its relevance to
Question #3 was disclosed at the pleading stages to the trial court in the
Movant’s Brief in Support of Emergency Motion for a Stay of Execution of
Sentence of Death (pp. 28-30, “Issue 5: There are Constitutional Alternatives
to Traditional Abortions Even for the Most Difficult Pregnancies”) and which
brief was cited on appeal in the Pro Se Supplemental Brief of Appellant (pp.
3-4) in relevance to Question #3; the Pro Se Supplemental Brief of Appellant

Appendix I - 1

(p. 3) also asked the Kansas Court of Appeals to consider a brief filed in the
case of Roeder u. Schmidt, No. 17-118601-S (Kan. S.Ct. 2018), and which brief
addresses the new technology in its relevance to Question #3. The new
technology was also addressed in its relevance to Question #3 in the Pro Se
Supplemental Petition for Review (pp. 7-8, “Argument and Authorities”).
Question #3 was presented to the trial court at the pleading stages in,
inter alia, the Emergency Motion for a Stay of Execution of Sentence of Death
and on appeal in, inter alia, the Pro Se Supplemental Brief of Appellant (pp.
2-5, “Roeder established the right of unborn and partially born individuals to
a stay of execution of sentence of death under Kansas law in his Emergency
Motion and the district court erred in concluding otherwise”). The trial court
addressed the question and denied the stay (Appendix C, p. 1, para 3). The
trial court again addressed the question in denying reconsideration
(Appendix D, pp. 1-2, para 3). The Kansas Court of Appeals addressed the
stay of execution issue in its judgment affirming the decision of the trial court
(Appendix A, pp. 17-18, “Emergency motion”) and denied rehearing
(Appendix B).
Question #4:
Question #4 (“Whether Roeder was denied the twin rights of counsel
and being present at a critical proceeding?”) was presented to the trial court
at the pleading stages in the Motion Attacking Sentence (pp. 4-5, “Claim
Two”) and in the Movant’s Brief in Support of Motion Attacking Sentence (pp.

Appendix I - 2

8-15, “Claim 2”) and on appeal in, inter alia, the Pro Se Supplemental Brief of
Appellant (pp. 7-8, “Twin Rights”). In the Brief of Appellant (pp. 2-3),
appointed counsel stated that the twin rights claim was raised at the trial
court. The trial court summarily dismissed all claims for relief on perfunctory
grounds without specifically addressing any of them (Appendix C) and
maintained the same when denying reconsideration (Appendix D). The
Kansas Court of Appeals addressed the twin rights issue in its judgment
affirming the decision of the trial court (Appendix A, pp. 5-10, “First
Appearance”) and denied rehearing (Appendix B).
Question #5:
Question #5 (“Whether but for ineffective assistance by trial and
appellate counsel under Strickland, Roeder’s convictions would not have been
upheld?”) was presented as separate claims at courts below, but the two are
combined here for brevity and because they were addressed under the same
overall heading by the Kansas Court of Appeals. The question of ineffective
assistance at the original proceedings was presented to the trial court at the
pleading stages in the Motion Attacking Sentence (pp. 5-6, “Claim Three”)
and in the Movant’s Brief in Support of Motion Attacking Sentence (pp. 1520, “Claim 3”) and on appeal in, inter alia, the Brief of Appellant (pp. 8-9,
“Roeder fully detailed both a factual and a legal basis for his claim that he
received ineffective assistance from his trial counsel”). The question of
ineffective assistance on direct appeal was presented to the trial court at the

Appendix I - 3

pleading stages in the Motion Attacking Sentence (pp. 6-7, “Claim Four”) and
in the Movant’s Brief in Support of Motion Attacking Sentence (pp. 20-30,
“Claim 4”) and on appeal in, inter alia, the Brief of Appellant (pp. 9-10,
“Roeder fully detailed both a factual and a legal basis for his claim that he
received ineffective assistance from his appellate counsel”). The trial court
summarily dismissed all claims on perfunctory grounds without specifically
addressing any of them (Appendix C) and maintained the same when denying
reconsideration (Appendix D). The Kansas Court of Appeals addressed the
ineffective assistance issue in its judgment affirming the decision of the trial
court (Appendix A, pp. 10-17, “Ineffective assistance of counsel”) and denied
rehearing (Appendix B).
Question #6:
Question #6 (“Whether the pattern of legal indifference shown for
Roeder’s rights by courts below is sufficient to invoke an exercise of this
Court’s supervisory powers?”) was presented to the trial court at the pleading
stages in the Motion Attacking Sentence (pp. 2-4, “Claim One”) and in the
Movant’s Brief in Support of Motion Attacking Sentence (pp. 2-8, “Claim 1”)
and on appeal in, inter alia, the Pro Se Supplemental Brief of Appellant (pp.
7-8, “Twin Rights”; pp. 8-9, “Pattern of Deliberate Indifference”). In the Brief
of Appellant (p. 2), appointed counsel stated that the legal indifference claim
was raised at the trial court. The trial court summarily dismissed all claims
for relief on perfunctory grounds without specifically addressing any of them

Appendix I - 4

-.A

(Appendix C) and maintained the same when denying reconsideration
(Appendix D). The Kansas Court of Appeals affirmed the decision of the trial
court in its judgment (Appendix A) and denied rehearing (Appendix B), but
did not address the legal indifference issue as a specific issue. In its
judgment, the Kansas Court of Appeals notes that Roeder raised the legal
indifference issue (Appendix A, p. 2, “Factual and Procedural Background”)
and quotes from but one example of legal indifference given in the Motion
Attacking Sentence (Appendix A, p. 5, under “First Appearance”).
Question #7:
Question #7 (“Whether the Kansas Court of Appeals should have
considered for the first time on appeal the suggestion of trial counsel’s
ineffectiveness for agreeing that the public need not be present during parts
of jury selection?”) was raised on appeal in, inter alia, the Pro Se
Supplemental Brief of Appellant (p. 9, “New Matter”). The Kansas Court of
Appeals specifically refused to consider the new matter in its judgment
affirming the decision of the trial court (Appendix A, pp. 4-5, “Analysis”) and
denied rehearing (Appendix B).
Question #8:
Question #8 (“Whether the Kansas Court of Appeals should have filed
the pro se supplemental reply brief which was timely lodged in response to
the state’s brief?”) arose on appeal. This issue was the subject of the Rule 5.01
Motion for Reconsideration of Order Denying Rule 5.01(d)(1)(B) Motion to

Appendix I - 5

File Pro Se Supplemental Reply Brief of Appellant and the Pro Se Petition for
Review (interlocutory). The Kansas Court of Appeals denied reconsideration
(Appendix G) and the Kansas Supreme Court denied the Pro Se Petition for
Review (Appendix H).
Question #9:
Question #9 (“Whether at least when counsel is court-appointed there
is a right to effective or at least non-incompetent assistance on collateral
review?”) arose on appeal due to appointed appellate counsel’s incompetence
on collateral review (counsel was not appointed at the trial court). The issue
was addressed in the Rule 5.01 Motion for Reconsideration of Order Denying
Rule 5.01(d)(1)(B) Motion to File Pro Se Supplemental Reply Brief of
Appellant (passim), the (interlocutory) Pro Se Petition for Review (passim),
the Pro Se Motion for Rehearing (passim), and the Pro Se Supplemental
Petition for Review (passim). The Kansas Court of Appeals denied
reconsideration (Appendix G) and the Kansas Supreme Court denied the
(interlocutory) Pro Se Petition for Review (Appendix H). The Kansas Court of
Appeals also denied rehearing (Appendix B) and the Kansas Supreme Court
denied the Pro Se Supplemental Petition for Review (Appendix E).

Appendix I - 6

